   Office of Inspector General
       Audit Report


  FAA HAS MADE PROGRESS FIELDING
ERAM, BUT CRITICAL WORK ON COMPLEX
 SITES AND KEY CAPABILITIES REMAINS
        Federal Aviation Administration

         Report Number: AV-2013-119
         Date Issued: August 15, 2013
           U.S. Department of
                                                              Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FAA Has Made Progress Fielding                                    Date:    August 15, 2013
           ERAM, but Critical Work on Complex Sites and
           Key Capabilities Remains
           Federal Aviation Administration
           Report No. AV-2013-119

  From:    Jeffrey B. Guzzetti                                                    Reply to
                                                                                  Attn. of:   JA-10
           Assistant Inspector General
              for Aviation Audits

    To:    Federal Aviation Administrator

           The Federal Aviation Administration’s (FAA) efforts to modernize the National
           Airspace System depend on the successful implementation of the foundational En
           Route Automation Modernization (ERAM) system—a multibillion dollar system
           for processing flight data at facilities that manage high-altitude traffic. However,
           we reported in September 2012 1 that extensive software-related problems have
           significantly delayed ERAM’s nationwide implementation, resulting in hundreds
           of millions of dollars in increased costs. Our report highlighted a number of
           fundamental weaknesses with program and contract management that had
           contributed to ERAM’s delays, and we made a series of recommendations to
           reduce risk with further implementation. FAA concurred or partially concurred
           with all our recommendations and is currently working to address them.

           Following our report, and given the importance of ERAM’s role in transitioning to
           the Next Generation Air Transportation System (NextGen), the House Committee
           on Appropriations, Subcommittee on Transportation, Housing, and Urban
           Development and Related Agencies, requested that our office continue monitoring
           ERAM’s progress. Accordingly, our objectives were to (1) provide an update on
           FAA’s progress in implementing ERAM, and (2) identify key issues that could
           delay the program and impact NextGen initiatives. We briefed the Committee on
           the results of our work on April 18, 2013 (see exhibit D). We conducted our work

           1
            Weaknesses in Program and Contract Management Contribute to ERAM Delays and Put Other NextGen Initiatives at
           Risk (OIG Report Number AV-2012-179), September 13, 2012. OIG reports are available on our Web site at
           http://www.oig.dot.gov/.
                                                                                                                   2


prior to the sequestration resulting from the Budget Control Act of 2011 2 and
therefore did not assess its impact on the ERAM program. 3

We conducted this follow-up audit work in accordance with generally accepted
Government auditing standards. Exhibit A details our scope and methodology.

RESULTS IN BRIEF
FAA made considerable progress deploying ERAM. The Agency is currently
using ERAM at 16 sites either on a full- or part-time basis—a significant step
given the extensive problems FAA encountered at the first two ERAM sites. FAA
plans to have ERAM fully operational at all 20 sites and decommission the legacy
system 4 by August 2014. However, as FAA deploys ERAM to the Nation’s
busiest facilities, such as New York and Washington, DC, the Agency expects to
identify new software-related problems that could impact the program’s cost and
schedule. FAA is currently spending about $12 million a month just on the
Facilities and Equipment (F&E) portion of the ERAM contract. As of February
2013, the Agency had spent approximately 65 percent of the available funding for
the program with 9 sites still remaining to be completed. If the current contract
spending rate does not decline significantly, the Agency will need additional
funding to complete the program as planned.

While FAA’s progress with ERAM deployment is noteworthy, the Agency faces
multiple challenges that could delay the program. For example, air traffic
controllers who are working as ERAM subject matter experts raised concerns that
FAA has become too schedule driven and is rushing to complete implementation
before site-specific issues are adequately addressed. In addition, controllers told us
that they have raised concerns with FAA senior management that the amount of
software allotted in the program baseline will not be sufficient to fix unresolved
issues and successfully complete the program. Our discussions with controllers
and subject matter experts also identified other issues with current ERAM
capabilities that are required to enable key NextGen initiatives. For example, these
officials raised concerns about ERAM’s tracker software, which is needed to
combine radar- and satellite-based data to more accurately show aircraft
location—a key requirement for future NextGen capabilities. Collectively, these
concerns point to the need for continued oversight of the program by FAA
management.



2
  P.L.112-25 (Aug.2, 2011).
3
  Due to sequestration, which began on March 1, 2013, FAA incurred a $637 million dollar reduction in funding for the
remainder of fiscal year 2013.
4
  HOST, the legacy en route automation system that ERAM intends to replace, has been in place at facilities since the
1970’s.
                                                                                                                        3


BACKGROUND
ERAM is a key NextGen-enabling program for processing high-altitude air traffic5
flight information. It replaces HOST, the legacy en route automation system,
which consists of a 40-year-old computer hardware and software system, plus a
backup, and more than 800 computer display workstations at 20 of FAA’s Air
Route Traffic Control Centers (ARTCCs). 6 As a foundational component of
NextGen, ERAM is critical for meeting FAA’s goals of increasing airspace
capacity and reducing flight delays. Without ERAM, the key benefits from new
NextGen systems—such as satellite-based surveillance systems and data
communications for controllers and pilots—cannot be realized.

FAA originally planned to complete ERAM deployment at all 20 sites by
December 2010. However, significant software problems identified early on at the
program’s first two sites impacted the system’s ability to safely manage and
separate aircraft and raised questions as to what capabilities ERAM would
ultimately deliver. In June 2011, FAA rebaselined ERAM, pushing its expected
completion to 2014 and increasing costs by an additional $330 million.

Our September 2012 report highlighted a number of fundamental program
management weaknesses that contributed to FAA’s difficulties in advancing
ERAM. These weaknesses included (1) setting an unrealistic schedule;
(2) allowing ERAM to successfully pass Government Acceptance even though
testing at the Agency’s Technical Center was limited and could not replicate actual
field conditions; (3) ignoring early warning signs of trouble, such as an
unexpectedly high number of problem reports; and (4) not committing enough
management attention to identify, communicate, and fix ERAM’s problems.

FAA MADE CONSIDERABLE PROGRESS DEPLOYING ERAM,
BUT FAA’S ABILITY TO MEET COST AND SCHEDULE GOALS
REMAINS UNCERTAIN
FAA is making considerable progress with fielding ERAM and is currently using
ERAM at 16 of the 20 sites either on a full- or part-time basis—11 of which are
relying on ERAM to control all en route air traffic full time. FAA is currently
moving ERAM to the most complex en route sites and plans to bring the
remaining four sites that are still running on the legacy system to initial ERAM
operations. However, the efforts required to achieve initial and continuous
operations at early sites such as Salt Lake City or Seattle are significantly different
from upcoming sites like New York, Washington DC, Atlanta, and Miami. Given
the complexity of these remaining locations, such as special airspace concerns,
5
  En route airspace is high-altitude traffic typically above 10,000 feet, where aircraft reach their cruising altitudes and
fly as direct a route as possible between their departure and destination points.
6
  ARTCCs, also referred to as en route centers or centers, control high-altitude air traffic nationwide.
                                                                                                               4


FAA may face unique challenges with site-specific software requirements that
could delay ERAM’s initial operations at these sites. Ultimately, FAA’s plans call
for all 20 sites to be fully operational with ERAM and for decommissioning 7 and
removing the HOST legacy system by August 2014.

While FAA’s progress in deploying ERAM is commendable, concerns remain that
the Agency will not be able to complete the program within its current cost and
schedule goals. As the table below shows, FAA already expended approximately
65 percent of its re-baselined budget and continues to spend nearly $12 million
each month on the program, excluding other funding from NextGen programs and
other sources.

Table 1. ERAM Budget and Spending
Total average ERAM contract monthly spending                        $12.4 million per month (includes
rate in CY 2012—F&E only                                            only ERAM contract F&E)
Total average ERAM monthly spending rate in                         $21.2 million per month (includes
CY 2012—all sources                                                 F&E, O&M, and NextGen) 8
Total F&E funding approved for the program                          $374 million (includes $330 million
                                                                    approved in 2011, plus another
                                                                    $44 million shifted from operations
                                                                    funding and other FAA accounts)
Total dollars spent on the program (as of                           $242 million (about 65 percent of
February 2013)                                                      the total approved)
Total dollars remaining in the approved budget
                                                                    $132.1 million
(as of February 2013)
Source: OIG analysis of FAA data.

As of February 2013, ERAM had only $132.1 million remaining in its approved
budget—with 18 months of work remaining before its August 2014 schedule goal.
However, ERAM’s average monthly spending rate is currently about $12 million
on the F&E portion of the contract alone. If costs continue and the program
spending rate does not drop significantly, FAA will likely need additional funding
to complete ERAM.

CONCERNS REMAIN THAT ERAM MAY NOT BE FULLY READY
TO PROVIDE KEY NEXTGEN ENABLING CAPABILITIES
Although FAA is making progress in deploying ERAM, the Agency faces several
significant challenges that could impact implementation. According to FAA

7
  Decommissioning involves the disconnection, removal, and disposal of the HOST computer system once ERAM has
been declared operationally ready at a site.
8
  This amount includes $12.4 million of Facilities and Equipment (F&E) funding and $3.3 million of Operations and
Maintenance (O&M) funding, and $5.5 million from other NextGen program (i.e., ADS-B, DataComm, and SWIM) for
CY 2012.
                                                                                                                     5


facility staff and National Air Traffic Controllers Association (NATCA) officials,
FAA has become overly driven by the program schedule at the expense of
developing needed and important requirements and enhancements. We found that
the ERAM Program Office is aggressively managing all remaining ERAM
software efforts—but focusing only on fixes to “core functionality” to get ERAM
operational at the remaining sites. Under the program’s new limited focus, the
Program Office has reclassified some previously identified requirements, such as
flexible and dynamic airspace 9—which is needed for controllers to manage air
traffic at some specific sites—as “enhancements” instead of requirements.
Because FAA has prioritized core functionality fixes over all other
“enhancements,” some important site-specific issues that controllers insist are
needed are being deferred to future software releases due to cost concerns.

Moreover, FAA subject matter experts working directly with the ERAM program
office and air traffic controllers continue to raise concerns about some ERAM
capabilities that are foundational to other NextGen initiatives. While these issues
are not expected to delay ERAM’s 2014 implementation, they will need to be
addressed to advance NextGen and achieve important benefits. These capabilities
include:

●   Flight Plan Trajectory Modeler—This is an ERAM capability that models
    aircraft flight paths and is used to predict conflicts between converging aircraft
    and ensure accurate aircraft “handoffs” between facilities. However, the
    modeler software often required adjustments to change the flight plan
    trajectory to ensure accurate handoffs. According to controllers, improvements
    are needed in order to support current operations and NextGen capabilities that
    use trajectory-based operations. 10

●   Aircraft Tracking and Sensor Fusion—This capability allows ERAM to
    integrate—or ‘fuse”—multiple radars and satellite-based information for
    controllers. However, thus far, controllers have not been able to take advantage
    of this improved capability because of technical issues with ERAM’s current
    tracking capability. A MITRE 11 analysis found that the ERAM tracker will
    require adjustments to use the Automatic Dependent Surveillance-Broadcast
    system (ADS-B) 12 and ground- based radar together to manage air traffic. Until
    these issues are addressed, it is unlikely FAA will be able to reduce separation
    between aircraft at high altitudes.
9
  Flexible and dynamic airspace allows controllers to shift control of airspace segments to other controllers, based on
weather and traffic pattern changes.
10
   Trajectory-based operations focus on more precisely managing aircraft from departure to arrival, with the benefits of
reduced fuel consumption, lower operating costs, and reduced emissions.
11
   MITRE Corporation managers a Federally Funded Research and Development Center for the FAA—the Center for
Advanced Aviation System Development—that assists FAA with scientific research and analysis.
12
   ADS-B, one of NextGen’s transformational programs, is a satellite-based surveillance technology that combines the
use of aircraft avionics and ground-based systems.
                                                                                        6


Finally, FAA managers told us that ERAM efforts may likely be impacted further
by budget adjustments resulting from sequestration. We did not independently
analyze the impact of sequestration on the ERAM program in this review.
However, according to FAA officials we interviewed, sequestration funding
reductions will significantly impact ERAM implementation. Agency officials told
us that FAA will continue to support the facilities that use ERAM on a full-time
basis. However, the Program Office intends to halt activities for facilities that were
working to transition from part-time use of ERAM to full-time operations. In
addition, the Agency will not initiate efforts at the last four sites that are still using
the HOST legacy system full-time to control air traffic and have not begun
transitioning to ERAM. According to FAA, furloughs, the reduction of overtime
and limited travel funding will limit controllers’ ability to serve as subject matter
experts and participate in workgroups that support ERAM implementation.

CONCLUSION
FAA’s long-term goals for NextGen ultimately depend on the success of its
ongoing efforts to deploy and fully implement ERAM. Though FAA made
significant progress deploying ERAM, it is uncertain whether the program will
stay within cost and on schedule. Challenges are expected as ERAM deployment
continues at complex sites on the East coast. To better ensure ERAM progress and
stakeholder buy-in, FAA will need to address ongoing concerns regarding system
capabilities and fully determine the impact sequestration is having on the program.
Ultimately, continued management oversight will remain critical to meeting
FAA’s ERAM and NextGen goals.

RECOMMENDATIONS
We made a series of recommendations in our September 2012 report to reduce risk
with ERAM implementation. FAA concurred or partially concurred with all our
recommendations and has been working to address them. We acknowledge FAA’s
work and progress to date in addressing our recommendations and in getting
ERAM on track. We encourage the Agency to continue its efforts to address our
previous recommendations and to improve ERAM implementation.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
On March 22, 2013, we met with FAA’s Air Traffic Organization Program Office
and ERAM program management to discuss the results of our follow-up work.
They agreed with our findings and conclusions, and provided comments to the
briefing that we provided to Congressional staff on April 18, 2013 (exhibit D).
Subsequently, we provided FAA a copy of our draft report for review on June 13,
                                                                           7


2013, and received technical comments on June 25, 2013, which we incorporated
into the final report.

                                     #

cc: DOT Audit Liaison, M-1
    FAA Audit Liaison, AAE-100
                                                                                8


EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this performance audit between September 2012 and June 2013 in
accordance with generally accepted Government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

The scope of our review was FAA’s ongoing efforts since September 2012
through June 2013 to deploy ERAM at its 20 Air Route Traffic Control Centers.
This included review and analysis of program plans, progress reports, and
documentation on implementation costs. As part of our work, we visited and
interviewed staff and subject matter experts at 3 of the 20 air traffic facilities
fielding ERAM that were experiencing problems or had not yet begun using
ERAM (in particular Atlanta, Chicago, and New York) for a first-hand perspective
on ERAM progress and any issues going forward. We also met with FAA program
officials, NATCA representatives, controllers, and the MITRE Corporation.




Exhibit A. Scope and Methodolog y
                                                       9



EXHIBIT B. ORGANIZATIONS VISITED OR CONTACTED

FAA Facilities

FAA Headquarters

Atlanta Air Route Traffic Control Center

Chicago Air Route Traffic Control Center

Chicago Terminal Radar Approach Control Center

New York Air Route Traffic Control Center

New York Terminal Radar Approach Control Center



Other Organizations

MITRE Corporation

National Air Traffic Controllers Association (NATCA)




Exhibit B. Organizat ions Visited or Contacted
                                                             10



EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


   Name                                   Title

   Barry DeWeese                          Program Director

   Joseph Hance                           Project Manager

   Sean Woods                             Senior Auditor

   Won Kim                                Senior Auditor

   Vicki Smith                            Senior Analyst

   Audre Azuolas                          Writer-Editor




Exhibit C. Major Contributors to This Report
EXHIBIT D. ERAM STATUS BRIEFING TO HOUSE                                          11
APPROPRIATIONS COMMITTEE, APRIL 2013




                                             U.S. Department of Transportation
                                                    Office of Inspector General




Exhibit D. ERAM Status Briefing to House Appropriations Committee, April 2013
                                                                                   In September 2012, we reported on FAA’s En Route Automation Modernization (ERAM)
                                                                                    program—a multibillion dollar program that is intended to replace and significantly
                                                                                    enhance the hardware and software at FAA’s en route facilities that manage high-
                                                                                    altitude air traffic.

                                                                                   We made a series of recommendations to FAA to improve ERAM’s program management,
                                                                                    testing, contract structure, and oversight to reduce the associated risks to completing
                                                                                    ERAM and to future NextGen-related programs. FAA has been responsive to our
                                                                                    recommendations.

                                                                                   Subsequent to our report, the Majority and Minority staff from the House Committee on
                                                                                    Appropriations, Subcommittee on Transportation, Housing, Urban Development, and
                                                                                    Related Agencies asked the Inspector General to monitor the status of ERAM’s progress.

                                                                                   We focused on: (1) FAA’s progress in implementing ERAM to include current status and
                                                                                    costs; and (2) key issues that could delay the program and impact NextGen initiatives
                                                                                    going forward.




Exhibit D. ERAM Status Briefing to House Appropriations Committee, April 2013
                                                                                                                                                                              12
                                                                                   FAA’s goals for NextGen—increasing airspace capacity and reducing flight delays—
                                                                                    depend on the success of its efforts to deploy ERAM—a $2.1 billion system for
                                                                                    processing flight data. Without ERAM, the key benefits from new NextGen systems—
                                                                                    such as satellite-based surveillance systems and data communications for controllers
                                                                                    and pilots—cannot be realized.

                                                                                   FAA originally planned to complete deploying ERAM to 20 sites by the end of 2010.
                                                                                    However, significant software problems identified early on at the key sites impacted the
                                                                                    system’s ability to safely manage and separate aircraft and raised questions as to what
                                                                                    capabilities ERAM will ultimately deliver.

                                                                                   Our work found that FAA’s problems in advancing ERAM were attributable to a number
                                                                                    of fundamental program management weaknesses. These weaknesses included:
                                                                                    (1) setting an unrealistic schedule; (2) allowing ERAM to successfully pass Government
                                                                                    Acceptance even though testing at the Agency’s Technical Center was limited and could
                                                                                    not replicate actual field conditions; (3) ignoring early warning signs of trouble, such as
                                                                                    an unexpectedly high number of problem reports; and (4) a lack of attention to identify,
                                                                                    communicate, and fix ERAM’s problems.

                                                                                   In June 2011, FAA rebaselined ERAM, pushing its expected completion to 2014 and
                                                                                    increasing costs by an additional $330 million.




Exhibit D. ERAM Status Briefing to House Appropriations Committee, April 2013
                                                                                                                                                                                  13
                                                                                   FAA is making significant progress in deploying ERAM at the Agency's 20 en
                                                                                    route centers in the continental United States. Currently, there are eight sites
                                                                                    that are fully operational and FAA has begun to remove the legacy system
                                                                                    and rely totally on ERAM. Another eight sites are using the system on a full-
                                                                                    or part-time basis.

                                                                                   ERAM is now being deployed to the most complex sites, such as New York, in
                                                                                    the National Airspace System (NAS). The efforts required to achieve initial
                                                                                    operations, and then continuous operations, at sites such as Salt Lake City or
                                                                                    Seattle were less complicated when compared with achieving initial
                                                                                    operations at more complex sites.

                                                                                   FAA is working to begin using ERAM at the last four sites at Atlanta,
                                                                                    Jacksonville, Miami, and Fort Worth, that are still using the legacy system.
                                                                                    FAA plans to begin using ERAM at the four remaining sites that are still
                                                                                    running on the legacy HOST system by September 2013.




Exhibit D. ERAM Status Briefing to House Appropriations Committee, April 2013
                                                                                                                                                                       14
                                                                                   As FAA deploys ERAM to more complex sites, program officials have
                                                                                    stated that they expect to continue to discover problems that could
                                                                                    impact the cost and schedule. For example:
                                                                                    ◦ New York Center recently fell back to the legacy HOST system due to
                                                                                      altitude handoff issues. ERAM use will be restricted to 4-hour runs until a
                                                                                      solution is delivered.

                                                                                    ◦ Atlanta and Miami Centers have identified site-specific issues, such as
                                                                                      dynamic airspace  that must be addressed prior to beginning initial
                                                                                      operations.


                                                                                   FAA plans for all 20 sites to achieve full operational capability and to
                                                                                    decommission and remove the legacy HOST system at all sites by
                                                                                    August 2014.




Exhibit D. ERAM Status Briefing to House Appropriations Committee, April 2013
                                                                                                                                                                    15
                                                                                   As of February 2013, FAA has spent a total of $302 million of the $330 million
                                                                                    added since rebaselining of the ERAM program in June 2011. This includes
                                                                                    $242 million in facilities (F&E) funding and $60 million in operations (O&M)
                                                                                    funds.

                                                                                   FAA’s total monthly average spending rate in the ERAM contract is $21 million.
                                                                                    This includes $12 million of F&E funding, $3 million of O&M funding, and $5.5
                                                                                    million from other NextGen programs (i.e., ADS-B, DataComm, and SWIM).
                                                                                                                 Funding Source                          Monthly Average
                                                                                                                                                             (CY12)
                                                                                                  F&E                                                $12.4 million

                                                                                                  O&M                                                $3.3 million

                                                                                                  F&E and O&M - Non-ERAM (NextGen                    $5.5 million
                                                                                                  Programs)

                                                                                                  Average Monthly Total                              $21.2 million

                                                                                                 Source: OIG analysis of FAA data on ERAM contract expenditures (numbers rounded)




Exhibit D. ERAM Status Briefing to House Appropriations Committee, April 2013
                                                                                                                                                                                    16
                                                                                   FAA has reprogrammed operations funding to support ERAM. The
                                                                                    Office of Management and Budget (OMB) approved the
                                                                                    reprogramming of a total of $44 million of existing ERAM O&M
                                                                                    funding in FY 2012 and 2013 to F&E funding. While this action did
                                                                                    not add additional funding to the program, it did increase F&E
                                                                                    funding available to complete ERAM by August 2014 from $330
                                                                                    million to $374 million.

                                                                                   Concerns remain that additional funding will be required to complete
                                                                                    ERAM. With 18 months remaining in the schedule, and some of
                                                                                    FAA’s most complex en route sites remaining ahead, if the current
                                                                                    contract burn rate does not decline significantly, the agency will need
                                                                                    additional funds to complete this stage of the program.




Exhibit D. ERAM Status Briefing to House Appropriations Committee, April 2013
                                                                                                                                                              17
                                                                                            18




                                                                     Source: OIG Analysis




Exhibit D. ERAM Status Briefing to House Appropriations Committee, April 2013
                                                                                ‣ FAA is making progress resolving problems and deploying ERAM, but continued
                                                                                  senior FAA management oversight is still needed.

                                                                                ‣ Concerns are rising that ERAM implementation is overly milestone driven, to the
                                                                                  detriment of system performance. According to FAA facility and National Air Traffic
                                                                                  Controllers Association (NATCA) officials, controllers like ERAM and are supportive
                                                                                  of the efforts to field the system. However, there are concerns that FAA has become
                                                                                  overly schedule driven, and tensions have increased between NATCA and FAA over
                                                                                  the perception that on-time implementation is the primary goal, at the expense of
                                                                                  promised or needed capabilities. This has resulted in NATCA leadership raising
                                                                                  concerns to senior FAA management.

                                                                                ‣ The remaining software baseline is tight, and most is already allocated to planned
                                                                                  software builds, leaving little room to fix current or new problems. The Program
                                                                                  Office is aggressively managing the remaining software code—only fixing what is
                                                                                  needed for “core functionality” (i.e., functionality that is necessary for controllers to
                                                                                  control and manage air traffic). As a result, the Program Office is focusing only on
                                                                                  critical and high-priority problems and is deferring lower-priority software fixes to
                                                                                  future releases. Some FAA experts estimate that as much as an additional 35,000
                                                                                  lines of software code, in excess of the current baseline, may be needed to
                                                                                  complete this stage of the program.




Exhibit D. ERAM Status Briefing to House Appropriations Committee, April 2013
                                                                                                                                                                              19
                                                                                ‣ Tension exists between the facilities and the program office over classification
                                                                                    of basic requirements versus enhancements.                 Previously identified
                                                                                    requirements, such as dynamic airspace and holding functions that are
                                                                                    necessary for certain facilities to manage air traffic, are being reclassified by
                                                                                    the Program Office as “enhancements” and are not being fully addressed at
                                                                                    this time.

                                                                                   FAA is assessing whether it will retain or remove the ERAM/Legacy backup
                                                                                    system. There are concerns among controllers, technicians and NATCA
                                                                                    experts that FAA is planning to remove the Enhanced Back-Up System (EBUS)
                                                                                    from ERAM. This system is an independent back-up system that is able to
                                                                                    temporarily take over air traffic control should ERAM fail. FAA is still
                                                                                    examining this issue.

                                                                                   FAA has approved funding for follow-on ERAM NextGen related capabilities.
                                                                                    FAA’s Joint Resources Council has approved ERAM software release #4, one of
                                                                                    several planned for ERAM, with a cost of $410 million in F&E and $559 million
                                                                                    in O&M. This effort will be used to continue to address site specific issues and
                                                                                    to add new NextGen related capabilities.




Exhibit D. ERAM Status Briefing to House Appropriations Committee, April 2013
                                                                                                                                                                        20
                                                                                Based on our discussions with controllers and experts, there are several issues
                                                                                that do not preclude the implementation of ERAM in the 2014 timeframe but
                                                                                will need to be addressed for the system to support NextGen. For example:
                                                                                   Flight Plan Trajectory Modeler - This capability models aircraft flight paths and is
                                                                                    used to show current and predicted aircraft position to, among other things,
                                                                                    predict conflicts and ensure accurate handoffs between controllers and other
                                                                                    facilities. However, the modeler unexpectedly displays a target in the wrong
                                                                                    location, in direct contradiction to an aircraft’s actual position. This has required
                                                                                    adjustments to the modeler software to change the flight plan trajectory to
                                                                                    ensure accurate handoffs. According to controllers, improvements are needed in
                                                                                    order to support current operations and NextGen capabilities that utilize
                                                                                    trajectory based operations.
                                                                                   Aircraft Tracking and Sensor Fusion - This capability allows ERAM to integrate—
                                                                                    or ‘fuse”—multiple radars and satellite based information for controllers. Thus
                                                                                    far, controllers have not been able to take advantage of this improved capability
                                                                                    (for using all available radars because) of tracking issues. As a result, fusion has
                                                                                    not been fully enabled in ERAM. A MITRE analysis found that the ERAM tracker
                                                                                    will require adjustments to use ADS-B and radar together to manage air
                                                                                    traffic. Until issues with fusion tracking are addressed, it is unlikely FAA will be
                                                                                    able to reduce separation between aircraft at high altitudes.




Exhibit D. ERAM Status Briefing to House Appropriations Committee, April 2013
                                                                                                                                                                            21
